BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
League of United Latin American Citizens as Amicus
Curiae in Support of Respondent in 20-303, United
States of America v. Jose Luis Vaello-Madero, were
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day Service and email to the following parties listed below, this 7th day
of September, 2021:
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioner
Hermann Ferre
Curtis, Mallet-Prevost, Colt and Mosle LLP
101 Park Avenue
New York, NY 10178
(212) 696-8871
hferre@curtis.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Paul Koster
Counsel of Record
Emory Law School Supreme Court
Advocacy Program
1301 Clifton Road
Atlanta, GA 30322
(404) 727-3957
Paul.Koster@emory.edu

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 7, 2021.

Donna J. Wolf
lishing, Inc.
Becker Gallagher Leg i
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

tl:.;J;/

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

~

J,iv {]

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
r,,br11a ry 14, ,:; /'3

